No.
IN THE
SUPREME COURT OF THE UNITED STATES

RONALD COX; FRANK SCHEUNEMAN; THERESA BRIDIE; MARC
KANTOR; PAOLA KANTOR; TIM RICE; WAYLAND WOODS; T.H.;
EDWARD ROURKE; EDDY LAYNE; CLYDE GARRETT; LARRY
ALFORD; AARON PIHA,
Movants-Applicants,
and
EDDY LAYNE; CLYDE GARRETT; LARRY ALFORD; AARON PIHA,
Parties Below-Applicants,
and
TODD DISNER; TRUDY GILMOND; TRUDY GILMOND, LLC; JERRY
NAPIER; DARREN MILLER; RHONDA GATES; DAVID SORRELLS;
INNOVATION MARKETING LLC; AARON ANDREWS; SHARA
ANDREWS; GLOBAL INTERNET FORMULA, INC.; T. LEMONT
SILVER; KAREN SILVER; MICHAEL VAN LEEUWEN; DAVID
KETTNER; MARY KETTNER; P.A.W.S. CAPITAL MANAGEMENT LLC;
LORI JEAN WEBER; A DEFENDANT CLASS OF NET WINNERS IN
ZEEKREWARDS.COM,
Defendant Class, Defendants,
v.
KENNETH D. BELL, in his capacity as court-appointed Receiver for REX
VENTURE GROUP, LLC d/b/a ZEEKREWARDS.COM,
Respondent.
APPLICATION FOR AN EXTENSION OF TIME
TO FILE A PETITION FOR A WRIT OF CERTIORARI

1

TO THE HONORABLE JOHN G. ROBERTS, JR., CHIEF JUSTICE OF
THE SUPREME COURT OF THE UNITED STATES AND CIRCUIT
JUSTICE FOR THE FOURTH CIRCUIT:
Pursuant to Supreme Court Rule 13.5, Applicants Ronald Cox, Frank
Scheuneman, Theresa Bridie, Marc Kantor, Paola Kantor, Tim Rice,
Wayland Woods, T.H., Edward Rourke, Eddy Layne, Clyde Garrett, Larry
Alford, Aaron Piha, Eddy Layne, Clyde Garrett, Larry Alford, and Aaron
Piha respectfully request an extension of time to file their petition for writ of
certiorari. The earliest deadline for Applicants to file their petition is
Monday, August 19, 2019, which is ninety days from Tuesday, May 21,
2019. For good cause shown, Applicants ask that this deadline be extended
by sixty (60) days so that the new deadline is Friday, September 18, 2019.
1.

The jurisdiction of this Court will be invoked under 28 U.S.C.

§ 1254.
2.

Applicants’ case involves one of the rarest types of complex

litigation, the defendant class action. Members of the defendant class
were judicially determined to be net winners in a billion-dollar Ponzi
scheme. The underlying claw back case sought to disgorge an estimated
$282.1 million in profits from the defendant class. The defendant class
consisted of everyone who made $1,000 or more during the alleged
scheme. The district court order certifying the class named twelve class
2

representatives, eight of whom represented themselves pro se at key
stages in the litigation, including discovery and summary judgment
proceedings. Before entry of the final judgment, several of the unnamed
class members (now the Applicants) sought to decertify the class citing
the lack of adequate legal representation of the class.
3.

On appeal, the class members argued that the district court

erroneously certified the class without appointing counsel for the class
and without properly analyzing the adequacy of class counsel when it
finally appointed counsel. The U.S. Fourth Circuit Court of Appeals
agreed that the district court failed to follow Federal Rule of Civil
Procedure 23. The appellate court independently identified several other
Rule 23 deficiencies contained within the district court’s certification of
the class, including the district court’s failure to address commonality,
typicality, and personal jurisdiction issues related to absent class
members or the absence of opt out rights. The circuit court nonetheless
affirmed the denial of the motion to decertify for two reasons: the
members’ failure to timely object and a determination that the litigation
had progressed to the point it would be difficult to remedy the error.
4.

Undersigned counsel for the Applicants in proceedings before

this Court did not participate as counsel or in any way in either the district
3

court or appellate court cases. Applicants only retained undersigned
counsel on July 2, 2019. Since then, counsel has worked diligently in
preparing a full and complete petition for writ of certiorari. The process
is daunting for new counsel since the case arises from a complicated and
intricate procedural history with 245 individual docket entries in the
district court proceedings alone. At the appellate level, the briefings were
significant and complex. Reviewing and analyzing these lower tribunal
proceedings for the purpose of preparing a concise, cogent, and
meaningful certiorari petition require careful planning, attention, and
drafting. This process requires significantly more time.
5.

The current certiorari deadline of Monday, August 19, 2019,

has given the undersigned only 46 days to draft and prepare a Supreme Court
certiorari petition. The proposed requested date will allow counsel a
reasonable number of additional days to draft a compliant and effective
petition for writ of certiorari. This delay is sought not for purposes of
delay but is tendered in the interest of administering justice.
6.

While this certiorari petition is prioritized on counsel’s

docket, there are several other matters requiring briefing in other
appellate tribunals that pre-date counsel’s involvement in this case. Of
moment is counsel’s preparation of an initial brief to the U.S. Court of
4

Appeals for the Eleventh Circuit in an interlocutory qualified immunity
appeal in Fuller v. Commissioner Carollo, Circuit Case No. 19-12439CC, due for filing on August 6, 2019. Counsel is also working to complete
an initial brief to the U.S. Court of Appeals for the Eleventh Circuit in a
direct appeal from criminal convictions in United States v. Gibbs-King,
Case No. 19-11802-D. Counsel also has several initial briefs being
prepared for filing in the Florida Third District Court of Appeal with
filing deadlines of August 19 and 23, 2019, respectively, in Mamonov v.
Marrero, Case No. 3D19-0120, and Johnson and Tydus v. City of OpaLocka, Florida, Case No. 3D19-0449. Counsel is completing an initial
brief to the Florida Fourth District Court of Appeal in Fernandez v. Potter
Fernandez, Case No. 4D19-1288, with a filing date of August 14, 2019.
7.

These appeals and other responsibilities on counsel’s part pre-

date counsel’s retention in the instant matter and require careful and timeintensive attention to complete. Counsel’s efforts to balance the important
responsibilities attendant to this case necessitate requesting this extension
of time within which to submit the certiorari petition.
8.

Accordingly, Applicants’ counsel requires the additional

requested time to prepare a comprehensive certiorari petition for
consideration by this Court. Respondents will not be prejudiced by the
5

requested extension. For the foregoing reasons, Applicants hereby
request that an extension of time, to and including Friday, September 18,
2019, be granted within which they may file their petition for writ of
certiorari.
Respectfully submitted,
s/ Benedict P. Kuehne
BENEDICT P. KUEHNE
Counsel of Record
Florida Bar No. 233293
MICHAEL T. DAVIS
Florida Bar No. 63374
KUEHNE DAVIS LAW, P.A.
100 S.E. 2nd St., Suite 3550
Miami, FL 33131-2154
Tel: 305.789.5989
efiling@kuehnelaw.com

6

APPENDIX CONTAINING OPINION BELOW

7

